: -_   " .;
        ;,          "\'
   /i
             Department of Health and Human Servces
                     OFFICE OF
                INSPECTOR GENERAL




          MEDICARE CREDIT BALANCES
         SKILLED NURSING FACILITY PATIENT
                   ACCOUNTS





                    .. s RVlc. u . V:


                                        Richard P. Kusserow
                                        INSPECfOR GENERA

                      ,,:w                    JUY 199
                       OFFCE OF INSPECTOR GENERA

The mission of the Offce     of Inspector General (OIG), as mandated by Public Law 95- 452 , as
amended , is to protect the integrity of the Department of Health and Human Servces ' (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carred out through a nationwide network of audits , investigations , and
inspections conducted by three OIG operating components: the Offce of Audit Servces , the
Office of Investigations , and the Offce of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program , and management problems , and recommends courses to
correct them.

                           OFFICE OF AUDIT SERVICE
The OIG' s Offce of Audit Servces (OAS) provides all auditing servces for HHS , either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carryng out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste , abuse , and
mismanagement and to promote economy and effciency throughout the Department.

                           OFFCE OF INTIGATIONS
The OIG' s Offce of Investigations (01) conducts criminal , civil , and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and
unjust enrichment by providers. The investigative effort of 01 lead to criminal convictions
administrative sanctions , or civi money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

                 OFFICE OF EVALUATION AN INSPECfONS
The OIG' s Offce of Evaluation and Inspections (OEI) conducts short- term management and
program evaluations (called inspections) that focus on issues of concern to the Department
the Congress ,and the public. The findings and recommendations contained in these inspection
reports generate rapid , accurate , and up- to- date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

This report was prepared in the Kansas City Regional Office under the direction of Don
McLaughlin , Regional Inspector General , and Jim Wolf, Deputy Regional Inspector General.
Project staff:

Kansas City                                           Headquarers
Ray Balandron , Team Leader                           Thomas Noplock, Program Specialist
Dennis Tharp, Project Leader                          Barbara Tedesco , Statistician
Phil O' Hare
Tim Dold


To obtain a copy of this report , call the Kansas City Regional Offce at   (816) 426- 3697.
           "\'




Department of Health and Human Services

        OFFICE OF

   INSPECTOR GENERAL





 MEDICARE CREDIT BALANCES
SKILLED NURSING FACILITY PATIENT

          ACCOUNTS





            .. S~RVIC



                        Richard P. Kusserow
                        INSPECfOR GENERA
      '0



           ~~".a            OEI-07-90-0010
              EXECUTIVE SUMMAR 

PUROSE
The purpose of this national inspection is to determine the dollar amount of Medicare
credit balances that exist at skilled nursing facilties (SNFs), and the time used by
SNFs and Medicare intermediaries in reporting and adjusting credit balances.

BACKGROUN
Whenever a Medicare payment is made to a provider (e. , skilled nursing facility) in
excess of the amount of payment that is due , a credit balance is created. The SNFs
as well as the Medicare intermediaries , have a responsibility to resolve these credit
balances.

In previous reviews ,   the OIG has identified significant credit balances in hospitals.
1985 inspection estimated $164 milion in Medicare credit balances in hospitals
nationwide. A more recent audit of 76 hospitals servced by nine intermediaries found
$266 milion in unrecovered hospital credit balance overpayments nationally. As a
result of our reviews of hospital credit balances , we decided to determine if similar
problems exist in nursing homes.

METHODOLOY
We selected a random sample of 50 SNFs in two stages. In the first stage , five States
were sampled.  Subsequently, 10 SNFs were sampled within each State for an on-site
examination of patient account records.

We requested the 50 SNFs to provide a listing of all credit balances as of March 31
1990. We determed the existence of an actual credit balance based upon a review
of the patient ledgers and Medicare log maintained at the facility. Our review
determined the amount of the credit balance , the date the SNF notifed the Medicare
intermediary of the existence of the credit balance , and the length of time it took the
intermediary to adjust the amount of the credit balance.

We recognize that the Medicare Catastrophic Coverage Act (MCCA) of 1988 was in
effect during our sample period. Although the exact impact of the repeal of MCCA
of 1988 on our sample cannot be determined, we believe the impact is negligible.

FIINGS
Projected Medare   Cred      Balances are Substantil    We estimate nationwide that
overdue credit balances in SNFs could be as much as $12. 7 milion as of March 31
1990.
Credit Balances Are Not Reported   Tunly     5 milion dollars , when projected
nationwide , in Medicare credit balances in SNFs were not reported after 1 year had
elapsed (as of March 31 , 1990).

Interri       Are Not Adjustig     Cred                 Fifty-eight percent of the
                                           Balances Tunly

Medicare credit balances reported to the intermediaries were not adjusted within 60
days of notice by the SNF.

RECOMMATIONS
The HCFA Should:

      Require Intermediaries to Take Action to Adjust Credit Balances;

      Require PJtermediaries to Timely Process Adjustment of Credit Balances;

      Work With Intermediaries to Increase the Awareness of Program Providers to
      Timely Identify and Report Credit Balances; and

      Seek Authority To Penalize Providers which Do Not Timely Report Credit
      Balances.

AGENCY COMMNT

The HCFA generally concurred with the recommendations presented in our draft
report. As a result of HCF A' s comments regarding our last recommendation , we have
modified our language to indicate that HCFA should seek authority, rather than
legislation , to penalize providers which do not timely report credit balances.
                                                                                                    . . . . . . . . . ..
              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .




                     TABLE OF CONTENTS

EXCU SUMY

INRODUCTION. . . 

FINDINGS                                                                            . . . . . . . . . . . . . . . . . . . 3

   Projected Medicare Credit Balances Are Substantial. . . . . . . . . . . . . . . . . . . . . 3


   Credit Balances Are Not Reported Timely . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


   Intermediaries Are Not Adjusting Credit Balances Timely. . . . . . . . . . . . . . . . . 3


RECOMMNDATIONS                                                                                            . . . . . . . . . 5

AGENCY COMMENTS                                                                                           . . . . . . . . . 6

APPENDICES:


   A - Estimated State and National Credit Balances . . . . . . . . . . . . . . . . . . '. A­

   B - Credit Balances Untimely Reported . . . . . . . . . . . . . . . . . . . . . . . . . . .. B­

   C - Untimely Adjustment by Intermediaries . . . . . . . . . . . . . . . . . . . . . . . .. C­

   D - Health Care Financing             Administration Comments . . . . . . . . . . . . . . . . . D­
                          INTRODUCTION


PUROSE
The purpose of this national inspection is to determine the dollar amount of Medicare
credit balances that exist at skilled nursing facilities (SNFs), and the time used by
SNFs and Medicare intermediaries in reporting and adjusting credit balances.

BACKGROUN
The Social Security Act , Section 1814 (a)(2)(B) provides for Medicare payments to
eligible SNFs for patients certified by physicians as needing that level of medical care.
Whenever such a payment for servces is made to a Medicare provider and for various
reasons the payment is in excess of the correct payment amount , a credit balance
exists and monies are due back to the Medicare program (Social Security Act , Section
1866 (a)(l)(C)).

When credit balances are created , certain responsibilties rest with the SNF and the
Medicare intermediary. Even though no formal time frames exist for reporting, the
SNF must notify the intermediary of the amount of the credit balance after its
identifcation. Subsequently, the   Medicare intermediary must adjust future SNF
payments in the amount of the credit balances.

In previous reviews ,the OIG has identified significant credit balances in hospitals.
1985 inspection estimated $164 millon in Medicare credit balances in hospitals
nationwide. A more recent audit of 76 hospitals servced by nine intermediaries found
$266 milion in unrecovered hospital credit balance overpayments nationally. As a
result of our reviews of hospital credit balances , we decided to determine if similar
problems exist in nursing homes.


MElHODOLOY
We selected a random sample of SNFs from the universe of all Medicare- participating
SNFs using a modified Rao , Hartly, Cochran method. A two stage cluster sample was
selected where States were chosen in the first stage with probabilty proportionate to
size. These States are: California ,   Florida , Missouri , Pennsylvania , and Wisconsin.

In the second stage ,a simple random sample of SNFs within each State was selected.
In each State ,10 SNFs were chosen for review. One SNF, however , was out of
business at the time our on-site visit was made , making a total of 49 SNFs.

We requested each SNF in the sample to provide the OIG with listings of outstanding
Medicare credit balances as of March 31 , 1990 for our review. If there were no credit
balances identifed by the facilty, all patient balances as of March 31 , 1990, were
examined. We recognize that the Medicare Catastrophic Coverage Act (MCCA) of
1988 was in effect durig our sample period. According to a June 1991 OIG Report
 Influences on Medicare s Skilled Nursing Facilty Benefit" (#OEI- 05- 89- 01590),
increased SNF payments are continuing even after repeal of the MCCA in May 1990.
Although the exact impact of the MCCA of 1988 on our sample cannot be
determined , we believe the impact is negligible.

We determined the existence of an actual credit balance based upon a review of the
patient ledgers and other documentation maintained at the facility. To ensure validity
of the credit balances , we requested the facilties to veri the existence of each credit
balance and credit balance amount. Our review determined the amount of the credit
balance , the date the SNF notified the Medicare intermediary of the existence of the
credit balance , and the length of time it took the intermediary to adjust the amount of
the credit balance.

We conducted a subsequent review several months later of all the SNFs which had
outstanding credit balances at the time of our on-site visits. This follow-up review was
performed to verify dollar amounts and the current disposition of the credit balances.
We also determined which SNFs had stil not reported those credit balances to the
appropriate intermediaries.
                                  FINDINGS


Projecte Medare Cred Balances are Substntl
Projecting to the national universe of Medicare SNFs , overdue credit balances of
approximately   $12. 7 milion are due back to Medicare (See Appendix A). As
discussed in the next   finding, we define a balance as overdue if it was outstanding after
45 days.

Credit Balances Are Not Report Tunly

Based upon information from nursing facilty personnel that they reconcile balances
monthly and allowig 15    days afterwards to report credit balances , we believe 45 days
is a reasonable time frame for reporting credit balances to the intermediaries.
We found that 36 of the 74 credit balances in our sample were reported after 45 days
but before 1 year had elapsed. Of these 36 credit balances , only 3 were reported
within 100 days. Half of the 36 were not reported until at least 200 days had elapsed.
Only about one- fifth (14 of 74) were reported timely, according to our defiition.

We found that 24 of the credit balances due back to the Medicare program had not
been reported after 1 year had elapsed. The national projection for these credit
balances is $2.5 milion (See Appendix B).

According to provider personnel , no incentive exists for the SNFs to identify and
report credit balances. Therefore , the facilties gave little priority to identifyng and
adjusting credit balances.



As part of our follow-up review ,we determined that 79 percent (19 of 24) of the
credit balances outstanding at the time of our on-site review were stil credit balances
over 6 months later.

Intenniari Are Not Adjustig Credit Balances Tunly

The Part A Medicare Intermediary manual (Sect. 2220. 3)      states that the actual costs
of servces cannot be determned until the end of the accounting period. This
because providers are paid on an estimated cost basis during the year with a final
settlement adjustment based on actual costs being made at the end of the reporting
period. Although there are no established time frames or promulgated procedures
regarding the period of time which an intermediary must adjust a credit balance , we
used 60 days as a reasonable time frame. This is consistent with Medicaid
overpayment recovery provisions for State Medicaid agencies.
Using this gauge of timeliness , our review found 58 percent (29 of the 50 Medicare
credit balances which were reported) were not adjusted by the intermediaries within
60 days of notice by the SNF (See Appendix C).
                    RECOMMENDA TIONS

Th   HCF A Shoul Take    Actin to Adjust Cred Balances
The HCF A should instruct Medicare intermediaries to adjust actual credit balance
amounts identifed by this inspection and to adjust credit balances on an ongoing basis.
If projected to the universe , overdue credit balances to the Medicare program would
be approximately $12. 7 milion nationally (See Appendix A).


Th   HCF A   Shoul Reqe Interiari to Tunly Proces AdjustTent of Credit
Balances

The HCF A should require Medicare intermediaries to timely adjust outstanding credit
balances. A time frame of 60 days ,  after notification by the SNF that a credit balance
exists , would correlate with Medicaid program overpayment recovery provisions for
State agencies (Public Law 99- 272, the 1985 Consolidated Omnibus Budget
Reconcilation Act Section 9512) to facilitate prompt resolution of credit balances.


Although , in some instances , time frames may need to be extended to verify disputed
Medicare claim amounts and to determine actual credit balance status , we recommend
that HCF A work with intermediaries to establish 60 days as a goal for the resolution
of credit balances.

Th HCFA Shoul Worl Wit
Provi to Tunly      Ide          Intri
                                   To Incease th Awaren of Prgram
                    and Report Cred Balances

The HCF A should work with intermediaries to emphasize to providers that credit
balances should be reported within a reasonable time. As  a result of awareness
programs and discussions with intermediaries , the HCF A may choose to develop their
own definition of reasonable time.

Efforts to encourage provider awareness could include newsletters , training sessions , or
on-site visits and/or reviews that establish a priority emphasis to this provider
responsibility. The HCF A might also consider assessing interest on those credit
balances not reported within a reasonable time.



Th HCFA Shoul Seek Autri to Penlie              Prvi whih Do Not Tunly Report
Credit Balances

The HCF A should seek authority that will allow it to impose a penalty on program
providers for failng to timely   identify and report credit balances.
                   AGENCY COMMENTS

The HCFA concurred with the recommendations presented in this report. The HCFA
agreed with the intent of the last recommendation which stated that HCF A should
seek legislation to penalize providers which do not timely report credit balances. As a
result of HCF A' s comments regarding our last recommendation , we have modified our
language to indicate that HCF A should seek authority, rather than legislation , to
penalize providers which do not timely report credit balances.

The HCF A believes that it will have the necessary authority to levy penalties once the
Office of Management and Budget approves mandatory requirements for reporting
credit balances. We agree that these mandatory reporting requirements , which would
allow HCF A to suspend all payments to providers if providers do not timely report
credit balances , is a suffcient penalty to provide an incentive for timely reporting.
                    APPENDIX A


      ESTITED STATE AN NATIONAL CRIT BAlCE

          No.      No. with         Average   Tot. Project.
ST.       sample   Cr. Bal.         Per SNF   Dollars Found

                                    $1976.       215 656.
                                    $ 208.           218.
                                    $2503.       648 403.
                                    $1948.       163 541.06
                                    $ 154.           810.




MEDICAR NATIONAL ESTIMATE                     $12 733 830
90% Confidence interval   (lower)             $ 2 747 720
                      . (upper)               $22 719 941
                     APPENDIX
          CRIT BALCE UNY                         REPOR1ED


               # of Credit
               Bal' s Not Reported    $ Amt. of        Avg. Amt. per
state          wi thin 45 days       Credi t Bal. s    Credi t Bal.

                                      $13 188                   648
                                      $ 1 , 158                 193
                                           461                  591
                                      $11 990                $2, 398
                                           537                  537
Total                                $36, 334                $1, 009


               # of Credit
               Bal' s Not Reported   $ Amt. of         Avg. Amt. per
state          after 1 yr. period    Credit Bal.       Credi t Bal.

                                     $ 4, 601                   920
                                           308                  154
                                     $ 8, 232                   515
                                           948                  948


Total                                $14, 089                   587


Medicare National Estimate:                             $2, 518, 191
     for the 24 credit balances which were not      reported until
     after one year had elapsed.
          90% Confidence interval (lower)               $ 319 778
                                     (upper)               716 603
                      APPENDIX C


           UNY ADmSTM BY INRMDIA
        # of     # of      # of          $ Amt.     # of      $ Amt.
        Credi t  Notices   Adjust.       of Adjus   Adjust.   of Adj us
ST.     Balances issued    .(60 da       .(60 da     60 da     60 da

                                         $ 3, 612             $ 9     576

                                             888                      892

                                             896              $ 9     906

                                             279              $12 263

                                                              $ 1, 544


TOTAL                                        675               34 
   181





                                C - 1

           APPENDIX D

HETH CAR FINANCIG ADMISTRTION COMMS





                 D - 1

'"



     ..:n.                                                                        Health Care

               DEPARTMENT OF HEALTH & HUMAN SERVICES                              Financing Administration





                                                                                  Memorandum
     Date
               APR I
               J. Michael Hudso
     From      Actig Adm;n1!\

     Subject
               OIG Draf   Report: "Medicare Credit Balances in Skied Nursing Facilty Patient
               Accounts " OEI- 07- 90-00910

               Inpector General 

               Offce of the Secretar

                  We have revewed the above-referenced report which sumares the results of
               OIG' s revew of credit balances in patient accounts at skied nursing facities
               (SNF. Based on the review, OIG projects that as much as $12. 7 mion rould be
               outstandig in SNF credit balance accounts.
                 . We agree with OIG' s recommendations. Our detailed comments on each
               recommendation are attached. However, we are concerned that the samplig
               methodology used by OIG has not produced a reliable estimate of total SNF credit
               balances. We believe               49 facilty sample of SNFs does not accutely
                                          a 5 State ,
               reflect national SNF credit balances , nor does it capture SNF dierences across the
               States (e.g. , number of individuals served). . The report assumes al conditions are
               the same across other States. Therefore , we are requestig that OIG descdbethe
               methodology and the actuaral projections used to generae the fidigs from
               sampled SNFs to al SNFs in the State and nationaly.

                  Than you for the opportnity to comment on this draf report. Please advie
               us whether you agree with our position on the report s recommendations at your
               ealiest convenience.



               Attachment
          Comments of the Health Care Financin          Administration
                  on OIG' s Draft Report:      "Medicare Credit Balances
                     in Skilled Nursing Faciltv Patient Accounts"
                                  (OEJ- 07- 90-009UD


OIG Recommendation


RCF A should tae     action to adjust credit balances.



RCF A ReSDonse

We agree. We request OIG to provide HCFA with the documentation for the
specifc situtions identifed in the review. We wi instruct the intermediares to
recover these fuds though the remittance process. Regardig our ongoing effort
the intermediares were diected in a memorandum dated September 26, 1991 , to
control provider adjustment requests and to ensure that       necessar action is taen to
adjust al reported   credit balances.

OIG Recommendation
RCF A should require intermediares to tiely         process adjustment of   credit balances.

HCF A RestJonse

We agree that adjustment clai should be processed in a tiely maner. We are
curentIy workig on specifcations for an electonic sytem to receive and process
adjustment clai. Th sytem wi signcatly reduce the amount of tie needed
to process adjustments. In the meantime , however,        we instrcted the intermediares
to reduce al   pendig adjustment    claims ,   regardless of source, to no more than a
2-month workload by March 1, 1992.       TI      instruction was included in the
September 26 , 1991 , memoradum.

OIG Recommendation
RCF A should work with intermediares to encourage the awaeness of program
providers to tiely identif and report credit balances.
Page 2


HCF A ReSDonse


We agree. In Apri 1991 ,   we intiated a major effort to recover al credit balances.
Each Medicae provider received three letters notig it of its responsibilty to
identi and repay Medicae credit balance in a tiely maner.
                                                               We alo developed
mandatory reportg requiements, which we have submitted for approva under the
Paperwork Burden Reduction Act.

OIG Recommendation

HCF A   should seek legilation to penale providers which do not tiely    report

credit balances.

HCF A Response


We believe that the intent of this recommendation ca be achieved though
                                                                  received
application of the mandatory reportg requiements. Once we have
approv of the requiements from the Offce of Management and Budget,
intermediares wi be able to withold or suspend progr payments when a
provider  fa to ' provide the requied data
